June 26, 2000
Audit Report No. 00-023


Pacific Place Renovation Project
Federal Deposit Insurance Corporation                                                          Office of Audits
Washington, D.C. 20434                                                             Office of Inspector General




   DATE:            June 26, 2000

   TO:              Arleas Upton Kea, Director
                    Division of Administration



   FROM:            Sharon M. Smith
                    Assistant Inspector General

   SUBJECT:         Pacific Place Renovation Project (Audit Report No. 00-023)

   This report presents the results of the Office of Inspector General’s (OIG) audit of the Pacific
   Place renovation project. The project consisted of the renovation of 283,849 square feet of the
   Federal Deposit Insurance Corporation’s (FDIC) office space in the 1910 Pacific Place building
   in Dallas, Texas. The general contractor was RCI Construction, Inc. (RCI); the architectural and
   engineering services contractor was The Amend Group; and the carpet installation contractor was
   DuPont Flooring Systems (DuPont). We found that the FDIC limited bidding competition by
   requiring, late in the bid process, the use of a specific subcontractor for electrical work. Limiting
   bidder competition on the contract lessened the possibility that the FDIC received the best
   possible price. In addition, we identified $182,231 in questionable costs attributable to RCI;
   DuPont; and the Pacific Place landlord, 1910 PP Limited Partnership. Further, The Amend
   Group could not provide evidence that it performed some of the duties required by its contract
   with the FDIC.


   BACKGROUND

   On March 17, 1997, the FDIC’s Board of Directors authorized the Division of Administration
   (DOA) to enter into leases for two office buildings in Dallas’ central business district to house
   the FDIC’s offices. One building, One Dallas Center (ODC), provides space the Corporation
   needs on a short-term basis until staff reductions are complete. The second building, Pacific
   Place, will serve as the FDIC’s long-term location and was leased for a 10-year term that
   commenced December 1, 1997. After obtaining the Board’s approval, DOA developed a
   comprehensive program of space requirements, completed design and construction drawings for
   both buildings, and developed a detailed project schedule to complete building renovations. On
   August 1, 1997, the FDIC awarded a general construction contract to RCI for the renovation of
   ODC. Also on August 1, 1997, the FDIC signed a fixed-price contract with DuPont to install
   carpet at both ODC and Pacific Place.

   On July 28, 1997, DOA sent Requests for Proposal (RFP) for the renovation of Pacific Place to
   16 contractors and asked them to submit fixed-price proposals. The proposals were due
August 15, 1997. This date was extended to August 19, 1997 because prospective bidders were
not told until August 14, 1997 that an exclusive subcontractor, Walker Engineering, Inc.
(Walker), must be used for the electrical work. The FDIC received four proposals on August 19,
1997. The technical evaluation panel met on August 25, 1997 and evaluated three of the four
proposals. One proposal was disqualified because it did not contain any pricing for electrical
work.

On September 22, 1997, the FDIC awarded a fixed price construction contract to RCI to act as
the general contractor for the Pacific Place renovation. The general contractor was to complete
construction in accordance with drawings and specifications provided by The Amend Group.
The initial contract price approved by the Board of Directors was $5,473,573, plus $1,368,393 as
a 25-percent contingency amount, for a total of $6,841,966. Construction was scheduled to
begin on September 22, 1997 and the work was to be completed by January 14, 1998. All
construction work has been completed.


OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to examine selected aspects of the FDIC’s contracting for and
administration of the renovation of the Pacific Place office building in Dallas, Texas. Our work
included a limited review of the bid process, a review of the tasks outlined in the original
contracts and subsequent change orders, and an analysis of billings paid by the FDIC to the
general contractor and the carpet installation contractor.

To understand the scope of the renovation project, we interviewed personnel assigned to the
Dallas DOA Acquisition Services Branch. We also interviewed personnel assigned to the
Washington DOA Corporate Services Branch who deal with facilities and leasing. In addition,
we researched and reviewed pertinent documents such as the construction contract and related
change orders (basically changes in fees to be paid the contractor and changes in the quantity and
nature of deliverables), the architectural and engineering services contract, the carpet installation
contract, the lease agreement between the FDIC and the landlord, and other significant
documents related to the project. Further, we compared the scope of work performed by
different contractors to determine if tasks were duplicated and we reviewed change orders to
determine whether the FDIC paid for tasks that should have been paid for by others.

To obtain more information about the exclusive subcontractor requirement, we interviewed
personnel from two of the losing bidders, reviewed one losing bidder’s bid file, and reviewed the
electrical bid from the other losing bidder.

For the billing portion of the audit, we reviewed RCI’s billings associated with contract number
9729821NST for the period October 1997 through July 1998. During that period, the FDIC paid
RCI $6,724,438. Our testing covered $1,176,564, which is the amount incurred and paid under
change orders, because the remainder of the costs was included in the fixed-price contract. To
determine whether the billings for the change orders were reasonable, adequately supported, and
complied with contract terms and conditions, we:




                                                  2
•   Compared the total amount authorized by the FDIC with RCI invoices and FDIC payments.

•   Reviewed tasks accomplished through the five change orders to determine if the tasks were
    allowable under the terms and conditions of the contract.

•   Reviewed all change orders to identify tasks that appeared questionable based on supporting
    documentation.

•   Reviewed change order tasks associated with Americans with Disabilities Act modifications
    that could be physically verified and determined if the changes were made.

•   Compared tasks accomplished through change orders with tasks included in the initial
    contract’s scope of work to determine whether the subsequent changes made were included
    in the original contract.

•   Selected a judgmental sample of 33 tasks (costing $88,059) from a total of 183 tasks (costing
    $1,176,564) included in the five change orders to determine whether the tasks were priced in
    accordance with the contract pricing schedule and if tasks were duplicated.

We also reviewed DuPont’s billings to determine whether the billings contained charges for
tasks covered by RCI’s contract. Further, we interviewed RCI’s President and personnel from
The Amend Group to request documentation for certain unsupported costs related to the build-
out.

We did not review internal control systems for either the FDIC or the contractors because we
concluded that the audit objectives could be met more efficiently by conducting substantive tests
rather than placing reliance on their respective internal control systems. Accordingly, we do not
express an opinion on internal controls. We performed our work primarily within DOA’s
Acquisition and Corporate Services Branches in Dallas, Texas, and Washington, D.C. We
conducted the audit from January 7, 1999 through December 30, 1999 in accordance with
generally accepted government auditing standards.


RESULTS OF AUDIT

We found that the FDIC limited bidding competition by requiring, late in the bid process, the use
of a specific subcontractor for electrical work. In addition, although RCI generally complied with
the terms and conditions of the contract, we identified $182,231 in questionable costs attributable
to RCI, DuPont, and the 1910 PP Limited Partnership. Table 1 shows a breakdown of the costs
we question.




                                                3
Table 1: Schedule of Questioned Costs
                                                                                 Amount
                    Description of Audit Finding                                Questioned
RCI: The FDIC Paid Amounts That Were Unsupported or Otherwise
Questionable                                                                  $38,925
RCI: The FDIC Paid for Tasks Twice or Tasks Were Never Performed               31,351
RCI: The FDIC Was Charged Too Much for Some Tasks                              11,661
Sub-Total: RCI                                                                            81,937
1910 PP Limited Partnership: The FDIC Paid For Costs That Should
Have Been Paid by the Landlord                                                            84,700
DuPont: The FDIC Paid DuPont for Work Not Performed                                       15,594
Total                                                                                   $182,231
Source: OIG analysis of FDIC contract records

In addition, The Amend Group could not provide evidence that it performed contractually
required services related to verifying the accuracy of costs charged by RCI. Consequently, we
question the amount the FDIC paid for those services. Because that amount was not specified in
the contract, we recommend in this report that the FDIC determine the value of the services not
provided and disallow that amount.


THE FDIC LIMITED BIDDING COMPETITION BY REQUIRING BIDDERS TO USE A
SPECIFIC SUBCONTRACTOR

The FDIC limited bidding competition by requiring bidders for the Pacific Place renovation
contract to use a specific electrical subcontractor, Walker. Because Walker was not responsive
in providing electrical pricing bids to two of the general contractors bidding for the renovation
contract, those bidders could not submit a complete bid acceptable to the FDIC. Consequently,
those potential bidders were eliminated from contract competition.

On April 2, 1997, the FDIC’s site planning committee held a meeting with the architectural and
engineering services contractor, The Amend Group, and Pacific Place building management.
Several items were discussed relating to the Pacific Place building renovation. Three items
discussed were that (1) Pacific Place building management would not be involved in the
construction, (2) Walker must be used for the electrical wiring, and (3) the Contracting Officer
would provide contractor requirements and “exclusive subs” in the Statement of Work. The
FDIC sent the Request for Proposal, which included the Statement of Work, to 16 general
contractors on July 28, 1997. However, the requirement that Walker be the exclusive electrical
contractor was not included in the Statement of Work. Bids were due back to the FDIC by
August 15, 1997.

We reviewed the documentation sent to prospective bidders and found that prior to August 13,
1997 (2 days before the bid due date), bidders were not notified that an exclusive subcontractor
was required. On August 12, 1997, one of the prospective bidders (first contractor) sent a faxed
message to the Contracting Officer asking whether there were any specified subcontractors. On



                                                 4
August 13, 1997, the Contracting Officer answered the contractor’s question in a letter stating
that Walker was the exclusive electrical subcontractor. According to the Contracting Officer, the
August 13, 1997 letter was sent to the remaining (three) prospective bidders and the bid due date
was extended to August 19, 1997. The other 12 prospective bidders had dropped out of
consideration by this time for reasons unrelated to this issue.

Although the first contractor had been notified of the requirement to use Walker, its bid included
another firm as the electrical subcontractor. On August 25, 1997, the Contracting Officer asked
this contractor to revise its bid to include Walker as the electrical subcontractor. The
estimator/project manager for the first contractor responded to the Contracting Officer on
August 27, 1997 in a letter stating that their company

       . . . and the other General Contractors, [were] well into the bid process prior to receiving
       information that Walker was the preferred electrician. We received notification by mail
       in a Question And Answer memorandum on August 15, 1997. I immediately called . . .
       Walker Engineering and [was told] that Walker was declining this bid due to their lack of
       manpower and the project schedule. Since this project was abiding by the Davis Bacon
       Act, I continued into the bid process with a fully qualified minority owned contractor. I
       called Walker again on bid day to confirm that they in fact were not bidding the project,
       and [was] again informed that they were declining the bid . . . [We have] now incurred
       bidding expenses in excess of $4,000. This situation seems very questionable . . . If
       Walker is indeed the only approved electrical contractor for this project, it should be a
       requirement that they submit bids to all of the approved FDIC General Contractors.
       Without this restraint, Walker Engineering has the power to sway the bid in whichever
       direction they desire and limits FDIC’s ability to fairly evaluate the bids.

Because Walker did not furnish a bid for the electrical work, the first contractor was excluded from
the bidding competition.

We discussed the requirement to use Walker with a second contractor. The contractor said it did
not know until late in the bidding process that Walker had to be used. This contractor stated that
it did receive an estimate from Walker, but not until August 18, 1997, which was only 1 day
before the extended bid closing date. Although the contractor told us that it is not unusual for a
subcontractor to submit a bid immediately prior to the bid closing date, they too believed the
process used in this procurement was unfair because the requirement to use a specific contractor
was disclosed late in the bidding process.

A third contractor also submitted a bid to the FDIC and was eliminated from contract
competition. The technical evaluation panel did not evaluate the bid because the panel
considered the bid non-responsive to the Request for Proposal. After receiving the bid, the FDIC
immediately informed the contractor that its bid was no longer being considered because it did
not contain any electrical pricing at all. The contractor responded to the FDIC that the proposal
did not include the cost of electrical work because Walker did not submit a proposal to them for
the electrical work.




                                                  5
We do not believe that the FDIC’s decision to require bidders to use a specific subcontractor was
appropriate. Although DOA personnel told us that the FDIC was required to use Walker for
electrical work during the Pacific Place renovation construction, that was not the case. DOA
personnel stated that Pacific Place building management required the FDIC to use Walker. Our
examination of FDIC’s building lease, however, disclosed no such requirement. In fact, at
paragraph 8.5.1. the lease states: “Tenant shall have the right to select an independent
construction contractor or contractors to construct Tenant Improvements, Major Alterations and
Alterations.”

FDIC’s Contracting Officer opined that elsewhere in the lease Pacific Place building
management was given the “right of first refusal” for any contractor selected by the FDIC. This
also was not the case. The closest wordings to such an opinion are at paragraphs 8.1. and
8.5.1.(B). Paragraph 8.1. states: “The plans and specifications and construction drawings . . . for
Tenant Improvements, shall be subject to Landlord’s approval, which approval shall not be
unreasonably withheld . . .” Then, paragraph 8.5.1.(B) states: “Tenant’s construction contractors
shall furnish Landlord evidence that such contractors carry workers compensation insurance as
required by the laws of the State and with insurance certificates showing Landlord as an
additional insured party, to insure Landlord against liability for bodily injury, death or property
damage for work done by such independent contractors, as follows: (1) construction general
contractors: $5,000,000.00 comprehensive general liability; and (2) construction subcontractors:
$1,000,000.00 comprehensive general liability.” The wording in these two passages gives the
landlord the right to review contractors’ plans and to insist the contractors be bonded, but the
wording gives no mention of any right of first refusal or required use of subcontractors.

The FDIC Acquisition Policy Manual, at paragraph 6.H.3.d., requires that, “FDIC’s policy of
adequate competition and fair and consistent treatment of offerors applies also to contractors in
their selection and dealings with all subcontractors.” (Emphasis added.) The FDIC precluded
adequate competition and fair treatment of potential subcontractors when it directed the general
contractors to use a sole source subcontractor. In the case of one potential general contractor, the
FDIC’s directed use of a specific subcontractor eliminated from the bidding a 100-percent
minority-owned subcontractor. Further, the directed use of a subcontractor can affect the amount
of the potential bids. Had potential bidders been allowed to use a subcontractor of their own
choice, there may have been more bids, and the bids may have been lower. Although the FDIC
Acquisition Policy Manual, at paragraph 6.H.5., establishes that the FDIC has the right to
approve a subcontractor before a contractor awards a subcontract, the manual has no provision
permitting the directed use of specific subcontractors.

We did find that Pacific Place’s building manager used Walker exclusively for electrical work.
However, we found no requirement for the FDIC to do the same. In addition, Walker’s failure to
provide all potential bidders with the information necessary to construct an “acceptable” bid
increased the potential for the perception of favoritism. Consequently, we believe that the FDIC
should not have required a specific subcontractor and should refrain from any activity that would
foster such perceptions.




                                                 6
Recommendation

We recommend that the Associate Director, Acquisition and Corporate Services Branch, DOA,

(1)      Emphasize to contracting officers the FDIC’s policy that adequate competition and fair
         and consistent treatment applies to contractors in their selection of subcontractors and
         that the contracting officers must ensure that potential bidders are not restricted in their
         selection of subcontractors.


THE FDIC INCURRED A NUMBER OF QUESTIONABLE COSTS THROUGHOUT
THE CONSTRUCTION PROJECT

The FDIC incurred $182,231 of various types of questionable costs during the construction
project. Specifically, we identified $38,925 in unsupported or otherwise questionable costs,
$31,351 in costs for tasks not performed and for tasks paid for twice, $11,661 in cost
overcharges, $84,700 in costs paid by the FDIC that should have been paid by the landlord, and
$15,594 in costs paid for work not performed.


The FDIC Paid Amounts That Were Unsupported or Otherwise Questionable

The Contracting Officer approved $38,925 in unsupported or otherwise questionable contract
change order costs that were not substantiated by The Amend Group. The Amend Group was
responsible for reviewing and verifying the accuracy of all costs associated with change orders
and ensuring that unit costs per item were appropriate, non-unit costs were reasonable, and all
necessary supporting documentation was received. Based on The Amend Group’s assurance of
cost accuracy and reasonableness, the FDIC’s Contracting Officer approved the change orders
and associated costs.

In a change order dated December 31, 1997, RCI charged the FDIC $15,613 for constructing a
Dutch door, providing a space heater, working on the exercise room lockers, and moving a
transformer. FDIC personnel could provide no documentation supporting the amount of this
charge. Similarly, documentation could not be provided to support two other charges that
included (1) working on office 409 and repairing a closer for the herailite doors on the 13th floor
($3,464) and (2) an unidentified task ($680). These items total $4,144.

We also found three instances where RCI billed for the same tasks as DuPont, the carpet
installation contractor. We question costs of $6,334, the total amount billed, because FDIC
personnel could not provide documentation showing which contractor actually did the work.

Other questionable amounts include:

•     $10,993 for the same task regarding water heaters, that were billed on two different change
      orders. Available documentation did not show the work performed for these charges.




                                                   7
    Consequently, we question the total amount ($9,089 and $1,904) billed for the task on both
    change orders.

•   $890 for additional light fixtures even though a memo from the consulting engineer stated
    there should be no additional cost for the light fixtures.

•   $951 for providing three dedicated outlets. According to correspondence between the
    Oversight Manager and the Contracting Officer, two of the three outlets existed prior to
    construction; therefore, there should be no charge for those two. We question two-thirds of
    the total change amount ($1,427).

We discussed these items with oversight personnel in May 1999. On September 7, 1999, they
provided us with a written narrative regarding these items. The narrative, however, was not
adequate to support the costs, because it provided no details such as bills for material and labor
hours associated with the tasks. Without adequate documentation supporting the costs, we
continue to question them.

On October 22, 1999, we asked The Amend Group for documentation to support amounts
charged by RCI. The Amend Group could not provide us with any documentation showing its
review of RCI’s charges. Instead, they referred us to RCI for documentation to support the
prices charged. Consequently, also on October 22, 1999, we asked RCI personnel to provide us
with details showing how these costs were derived. Because RCI did not provide adequate
documentation, we placed two follow-up calls to RCI in November 1999, and one in December.
Finally, on December 14, 1999, RCI personnel met with us. However, they could not provide us
with documentation showing how RCI arrived at the amounts charged. RCI personnel provided
only General Contractor Quotations showing the amounts they billed. On December 21, 1999,
we once again asked The Amend Group for documentation showing that it met its contractual
responsibility to review and verify the accuracy of all costs associated with change orders related
to construction, to ensure that RCI used the appropriate unit costs per item, and that non-unit
costs were reasonable. Once again, The Amend Group could provide no documentation showing
how or if any such detailed verification of accuracy was done. Because neither the FDIC, nor
The Amend Group, nor RCI could support the amounts charged and because the detail for the
charges was not included in the change order files, the FDIC has little assurance that change
order charges were proper.

Because The Amend Group could not support that it performed its required contractual duty for
verifying the accuracy of amounts charged by RCI, we question the amount the FDIC paid The
Amend Group for providing that service. Although the contract did not specify the dollar
amount for providing that service, the FDIC should estimate the value of the service it did not
receive and disallow that amount.




                                                 8
Recommendations

We recommend that the Associate Director, Acquisition and Corporate Services Branch, DOA,

(2)        Disallow the $38,925 in unsupported or questionable change orders (questioned costs, of
           which $26,091 is unsupported).

(3)        Determine the value of the required contractual service The Amend Group did not
           provide and disallow that amount.


The FDIC Paid RCI $31,351 for Contracted Tasks That Were Either Paid for Twice or Never
Performed.

The FDIC paid twice for tasks totaling $28,927. The initial restroom modification plan prepared by
the consulting engineer included a list of requirements that would ensure that Pacific Place
restrooms complied with the Americans with Disabilities Act (ADA). The requirements were based
on an ADA Compliance Survey and Report prepared by another independent consulting firm. The
requirements covered 18 of the 20 floors (36 restrooms) in the building. The two floors not covered
were the first and seventh floors.1 The initial total cost for ADA renovations was $208,667 for an
average of $5,796 per restroom. As part of the initial requirements, RCI was to do the following,
among other things:

•     Install new faucets and insulate piping at the handicap lavatory.

•     Install new grab bars in the handicap stall and relocate grab bars to the correct height and
      location on five floors that already had grab bars.

•     Relocate accessories in the women’s restrooms to the correct height.

After the initial requirements, RCI identified seven line items priced at a total cost of $10,000 for
additional work related to ADA renovations. Five of the seven line items included in this change
were included in the initial modification plan. We discussed these issues with oversight personnel
who believed that the additional $10,000 may have been needed for other requirements, but they
could provide no supporting documentation to support such a belief.

In addition, on another change order, RCI was paid $16,680 for ADA renovations for the second
floor restrooms. Our comparison of tasks in the original modification plan with tasks identified
in the change order showed that some of the tasks were duplicated. For example, although
slightly different verbiage was used, both required that two stalls be converted into one handicap
stall and that lavatories be moved to the proper height. Several other tasks were also duplicated.

1
    The first and seventh floors were not included in the renovation because they were leased by other tenants.


                                                             9
When we discussed the additional $16,680 for the second floor restrooms, oversight personnel
stated that the costs of the second floor restrooms were not included in RCI’s or the consulting
engineer’s scope. We were told that the $16,680 for the second floor restroom ADA work was
added when the FDIC entered into lease negotiations for additional space, which made the FDIC
the primary tenant on the second floor.

We informed oversight personnel that the second floor restroom renovations were, in fact, included
in the initial modification plan. A February 25, 1998 e-mail message from the Oversight Manager
to the Contracting Officer referenced the modification plan, which included the second floor
restrooms. In addition, Exhibit K-2 of the lease agreement, the preliminary list of restroom/core
ADA items, includes line items for the second floor restrooms as well as the other floors in the
building. We believe the e-mail and the lease agreement confirm that ADA restroom renovations
for the second floor were included in the initial restroom modification plan.

We also question $2,247 for work associated with an alarm and related signage for one of the doors
in the building. Documentation shows that these tasks and costs were included in two separate
change orders, both of which were billed to and paid for by the FDIC.

Tasks that were not performed cost the FDIC $2,424. As part of the restroom modification plan
requirements, RCI was to provide handicap signs for the restrooms. On February 9, 1999, we
inspected the restrooms and found no handicap signs although the FDIC paid $1,800 for the
signs. We discussed this requirement with oversight personnel who told us that, apparently, this
was an inadvertent omission. Nine months later, on October 28, 1999, we checked the restrooms
again and found that there were still no handicap signs. In addition, we found that $1,248 was
paid for the demolition of two marble floor areas. However, only one of the marble floor areas
had been demolished. Therefore, we question half the cost, $624.


Recommendation

We recommend that the Associate Director, Acquisition and Corporate Services Branch, DOA,

(4)    Disallow the $31,351 for tasks paid for twice and tasks paid for but not performed
       (questioned costs).


The FDIC was Overcharged for Some Tasks

RCI priced items in construction change orders $11,661 higher than prices for the same or
similar items listed in the contract pricing schedule, quoted by other bidders in their pricing
schedules, or previously charged by RCI under this contract. The FDIC required bidders to
include a price schedule for additional work in their bid packages. As part of the schedule, RCI
quoted unit prices for added work. The prices were to be used to compute the cost to the FDIC
should the amount of work required by the contract be changed by order of the FDIC. The
contract stated that for work added, the unit prices shall include all material, labor, overhead, and
profit for the contractor and any subcontractors.



                                                 10
When we compared what RCI charged for 33 selected line items with the contract prices, we
determined that in 11 instances the prices charged by RCI exceeded those shown in the contract
by a total of $7,448. Because RCI failed to list prices for some items, although such a listing
was required during the bidding process, we compared the prices RCI charged with those listed
by another bidder. We found that in three instances the prices charged by RCI exceeded those
listed by the other bidder by a total of $2,164. For some items not required to be price-listed, we
compared RCI’s charges to similar items previously billed by RCI. We found that in two
instances the prices charged by RCI exceeded amounts RCI had previously charged for similar
items by a total of $2,049.

In addition to these pricing differences a number of other changes were made due to change
orders that may include cost overcharges. For example, a change order for RCI to provide
hardware for six doors did not specify the type of hardware. Absent this information, we could
not compare the price with the contract price. For another change, RCI performed multiple tasks
such as providing lockset hardware for four offices; installing six duplex receptacles and two
outlets; and relocating two thermostats, switches, and a transformer. We could compare prices
paid for the lockset hardware, duplex receptacles, and the two outlets. However, because the
contract either did not contain pricing or RCI failed to provide pricing for relocating the
thermostats, switches, and transformer, we could not determine the amount these tasks should
have cost. During our audit, we identified a number of changes that occurred where we could
not test pricing because the change contained tasks that either were not priced or the description
did not match what was in the contract. Consequently, additional changes may have been made
but not priced in accordance with the contract.

On June 15, 1999, we asked the Oversight Manager to explain the differences in pricing.
However, the Oversight Manager could not provide documentation explaining the differences.
Consequently, we continue to question $11,661.


Recommendations

We recommend that the Associate Director, Acquisition and Corporate Services Branch, DOA,

(5)    Disallow the $11,661 in overcharges (questioned cost).

(6)    Evaluate all remaining additional work costs to identify and disallow additional overcharges.


The FDIC Paid for Costs That Should Have Been Paid by the Landlord

The FDIC did not collect the landlord’s share ($84,700) of ADA restroom renovation costs. The
lease agreement’s section 31.1, specifies that the landlord and tenant agree to make the restroom
modifications set forth in Exhibit K-2 of the lease. This section also states that the landlord will
reimburse the tenant 50 percent of the cost (specified as $169,400 in Exhibit K-2) 30 days after
the tenant notifies the landlord that it has made such modifications. Although the actual cost of



                                                 11
the modification was $208,667, the lease limited the landlord’s obligation to 50 percent of
$169,400, or $84,700. We notified the Assistant Director, Division of Administration, on March
22, 1999 that the landlord had not been billed for its share of the costs. On September 2, 1999,
the Assistant Director sent a letter to the landlord requesting payment.


Recommendation

We recommend that the Associate Director, Acquisition and Corporate Services Branch, DOA,

(7)    Require 1910 PP Limited Partnership to reimburse its $84,700 share of ADA restroom
       renovation costs (questioned cost). (On September 2, 1999 the FDIC took action on this
       recommendation by billing the landlord for the $84,700.)


The FDIC Paid DuPont for Work Not Performed

The Corporation paid RCI $15,594 for the installation of resilient base in carpeted areas even
though a separate carpet installation contract with DuPont covered the installation of the base in
those areas. The DuPont contract Statement of Work, part 1.2.F., states that the installer shall
comply with Section 09681 of The Amend Group project manual. Section 09681 of the project
manual provides the specifications for carpet installation, accessories, and installation of resilient
base in the areas of carpet installation. In accordance with the contract, the FDIC paid DuPont to
install the resilient base. However, the FDIC also instructed RCI to install the resilient base
(through a change order to the RCI contract) and paid RCI for accomplishing the task. Thus,
FDIC paid twice for the resilient base installation.

The dual payment resulted because of the Oversight Manager’s and Contracting Officer’s
confusion regarding contractual requirements. Documents the FDIC provided us illustrate the
confusion. On August 1, 1997, the FDIC Contracting Officer sent a letter to RCI stating, “FDIC
has reviewed the specifications and [has] indicated to DuPont it is in their scope to provide the
base installation.” The letter goes on to ask RCI if RCI’s contract “included installation of the
base for the carpeted areas.” On October 27, 1997, the Contracting Officer sent a letter to
DuPont citing the Carpet Installation Specifications, Section 09681, “for the requirement and
instructions for the installation of the base.”

On October 29, 1997, DuPont sent a letter to the FDIC Contracting Officer stating, “The
specifications that you refer to in your letter of October 27 refer to DuPont’s work on both the
first building (One Dallas Center) and the second building (Pacific Place). However, on the first
building [DuPont] did not install the base. It was furnished by others and installed by others.
[DuPont] has proceeded on the understanding that the base which was furnished by others on this
job, will also be installed by others. Therefore, the base installation for Pacific Place should be
handled by whoever installed it on One Dallas Center.” DuPont’s statements do not deny that
the contract requires installation of the base. Instead, DuPont simply notes that because DuPont
did not install the base at One Dallas Center, it should not have to install the base at Pacific
Place.



                                                 12
On October 30, 1997, the Oversight Manager sent the Contracting Officer an e-mail that
indicated further confusion as to the contractual requirements. The e-mail stated, “As discussed
yesterday, as long as neither RCI nor DuPont have the base for carpeted areas in their contract, I
would rather accomplish the change order with RCI than with DuPont.” This e-mail indicates
that the Oversight Manager did not know that DuPont’s contract, in fact, did require base
installation. It also indicates that the Oversight Manager and the Contracting Officer had
discussed that DuPont’s contract did not have the requirement (even though the Contracting
Officer’s October 27, 1997 correspondence with DuPont and RCI indicates otherwise, citing the
specific verbiage location in the contract). Finally on October 30, 1997, the Contracting Officer
sent DuPont a letter stating, “The FDIC appreciates your concern and cooperation regarding the
installation of the base in the carpeted areas. The FDIC has resolved this situation through the
General Contractor.”

We believe the FDIC should require DuPont to reimburse the dollar amount relative to installing
the resilient base (that is, DuPont should reimburse the FDIC for the value of the contracted
work DuPont did not do). We estimate that amount to be $15,594—the amount the FDIC paid
RCI to do the work.


Recommendation:

We recommend that the Associate Director, Acquisition and Corporate Services Branch, DOA,

(8)    Disallow $15,594, which represents the value of the contracted work that DuPont did not
       perform (questioned cost).


CORPORATION COMMENTS AND OIG EVALUATION

On May 31, 2000, the Director of the Division of Administration provided a written response to
the recommendations included in a draft of this report. The response is presented in appendix I
of this report. The Director agreed with all the draft report’s recommendations and stated that
corrective actions had been or would be taken. Further, the responses and subsequent
discussions with the Associate Director, Acquisition and Corporate Services Branch, provided
the elements necessary for management decisions on the recommendations. The Associate
Director clarified that DOA agrees to disallow the dollar amounts cited in recommendations 2, 4,
5, and 8. Therefore, no further response to this report is necessary.

Appendix II presents management’s proposed actions on our recommendations and shows that
there is a management decision for each recommendation in this report.

Based on our work, we will report questioned costs of $182,231 (of which $26,091 is
unsupported) in our Semiannual Report to the Congress.




                                                13
                                                                                         APPENDIX I
                                                CORPORATION COMMENTS

             Federal Deposit Insurance Corporation
             550 17th Street, NW, Washington, DC 20429                                Division of Administration




                                                         May 31, 2000


    MEMORANDUM TO: Sharon M. Smith
                   Assistant Inspector General


    FROM:                        Arleas Upton Kea
                                 Director, Division of Administration

    SUBJECT:                     Management Response to Draft Report: Pacific Place Renovation
                                 Project


    The Acquisition and Corporate Services Branch (ACSB) has completed its review of the subject
    Office of Inspector General (OIG) draft report. The OIG identified six findings and eight
    recommendations, including $182,231 in questioned costs. Based on our preliminary review,
    one corrective action has been completed and the remaining corrective actions will be completed
    in accordance with the timetable established in Exhibit A. Exhibit A summarizes the six audit
    findings and eight recommendations and provides expected completion dates and the
    documentation that will confirm completion.

    Management Decision:

    Finding #1: FDIC Limited Bidding Competition by Requiring Bidders to Use a Specific
    Subcontractor

    Recommendation #1: Emphasize to Contracting Officers the FDIC’s policy that adequate
    competition and fair and consistent treatment applies to contractors in their selection of
    subcontractors and that the Contracting Officers must ensure that potential bidders are not
    restricted in their selection of subcontractors.

    Management Response #1: We agree with the recommendation. The Assistant Director,
    Acquisition Section (AS), will send a memorandum to all contracting officers reminding them to
    be cognizant of conditions that have the potential for limiting competition and to take steps to
    ensure that adequate competition and fair and consistent treatment is applied to all offerors.


    Finding #2: FDIC Paid Amounts that were Unsupported or Otherwise Questionable

*   Recommendation #3: Disallow the $38,925 ($38,925 in questioned costs, of which $26,091 is
    unsupported). [Note: The draft report did not include a Recommendation #2]

      * Recommendation numbers changed for final report

                                                           14
Management Response #3: We agree with the recommendation. DOA AS and oversight
management personnel will work together to determine whether FDIC received value for the
money paid. DOA, in conjunction with the Legal Division, will disallow and pursue recovery of
the amounts that cannot be adequately supported by the contractor, as appropriate.


Recommendation #4: Determine the value of the required contractual service The Amend
Group did not provide and disallow that amount.

Management Response #4: We agree with the recommendation. DOA has already disallowed
some of the Amend Group charges. DOA AS will contact the IG auditors to obtain the
information already compiled regarding this finding so that we can better estimate the value. We
will work with Legal to determine our contractual standing in this matter and will disallow costs
as appropriate.


Finding #3: FDIC Paid RCI $31,351 for Contracted Tasks that Were Either Paid for
Twice or Never Performed.

Recommendation #5: Disallow the $31,351 for tasks paid for twice and tasks paid for but not
performed.

Management Response #5: We agree with the recommendation. DOA AS and oversight
management personnel will work together to determine whether FDIC received value for the
money paid. DOA, in conjunction with the Legal Division, will disallow and pursue recovery of
any amounts that cannot be adequately supported by the contractor, as appropriate.


Finding #4 FDIC was Overcharged for Some Tasks.

Recommendation #6: Disallow the $11,661 in overcharges. [Note: The Report lists this as
Recommendation #5]

Management Response #6: We agree with the recommendation. DOA AS and oversight
management personnel will work together to determine whether FDIC received value for the
money paid. DOA, in conjunction with the Legal Division, will disallow and pursue recovery of
the amounts that cannot be adequately supported by the contractor, as appropriate.


Recommendation #7: Evaluate all remaining additional work costs to identify and disallow
additional overcharges.

Management Response #7: We agree with the recommendation. DOA AS will contact the IG
auditors to obtain information on work costs were reviewed versus the costs that remain to be
reviewed and will determine the materiality of the amount in question and the resources required
to perform the review. Based on the results of the review, DOA will disallow and pursue
recovery of any amounts that cannot be adequately supported by the contractor.


                                               15
Finding #5 The FDIC Paid for Costs that Should Have Been Paid by the Landlord.

Recommendation #8: Require 1910 PP Limited Partnership to reimburse its $84,700 share of
ADA restroom renovation costs.

Management Response #8: We agree with the recommendation. We have already recovered
this money from the Landlord. Therefore, this recommendation is closed.


Finding #6: The FDIC Paid DuPont for Work Not Performed

Recommendation #9: Disallow $15,594, which represents the value of the contracted work.

Management Response #9: We agree with the recommendation. In conjunction with the Legal
Division, DOA AS will determine our contractual standing on this issue and will disallow and
pursue recovery of all amounts as appropriate.


If you have any questions regarding the response, you may Andrew O. Nickle, Audit Liaison for
the Division of Administration at (202) 942-3190.

Attachment

cc:    Howard Furner
       Andrew Nickle
       Mary Rann
       Joy Eason




                                             16
                                                                    EXHIBIT A

                        SUMMARY OF ACQUISITION AND CORPORATE SERVICES BRANCH MANAGEMENT DECISIONS


NO.     FINDING         QUESTIONED   MANAGE-           DESCRIPTION OF CORRECTIVE ACTION                        EXPECTED         DOCUMENT
      DESCRIPTION       COST/OTHER     MENT                                                                   COMPLETION        VERIFYING
                         FINANCIAL   RESPONSE                                                                    DATE          COMPLETION
                        ADUSTMENT

1     FDIC Limited      $0           Agree      CORRECTIVE ACTION FOR REC #1: The Assistant                   Sept 30, 2000   Letter from
      Bidding                                   Director, Acquisition Services, will send a letter to all                     Assistant Director
      Competition by                            contracting officers reminding them to be cognizant of                        to Contracting
      Requiring                                 conditions that have the potential for limiting competition                   Officers
      Bidders to Use                            and to take steps to ensure adequate competition and fair
      a Specific                                and consistent treatment is applied to all Offerors.
      Subcontractor
2     FDIC paid         $38,925      Agree      CORRECTIVE ACTION FOR REC #2: DOA contracts                   Sept 30, 2000   Decision
      amounts that                              and oversight personnel will work together to determine                       Memorandum or
      were                                      whether FDIC received value for the money paid. Then, in                      Demand Letter
      Unsupported or                            conjunction with the Legal Division, we will disallow and
      Otherwise                                 pursue recovery of all amounts that cannot be adequately
      Questionable                              supported by the contractor, as appropriate.

                                                CORRECTIVE ACTION FOR REC #3: DOA has                         Sept 30, 2000   Decision
                                                already disallowed some of the Amend Group charges.                           Memorandum or
                                                DOA will contact the IG auditors to obtain the information                    Demand Letter
                                                already compiled regarding this finding so that we can
                                                better estimate the value. We will work with Legal to
                                                determine our contractual standing in this matter and will
                                                disallow costs as appropriate.
3     FDIC Paid RCI     $31,351      Agree      CORRECTIVE ACTION FOR REC #4: DOA                             Sept 30, 2000   Decision
      $31,351 for                               contracts and oversight personnel will work together to                       Memorandum or
      Contracted                                determine whether FDIC received value for the money                           Demand Letter
      Tasks that Were                           paid. Then, in conjunction with the Legal Division, we
      Either Paid for                           will disallow and pursue recovery of all amounts that
      Twice or Never                            cannot be adequately supported by the contractor, as
      Performed.                                appropriate.

                                                                   17
4   FDIC was          $11,661   Agree   CORRECTIVE ACTION FOR REC #5: DOA                              Sept 30, 2000   Decision
    Overcharged                         contracts and oversight personnel will work together to                        Memorandum or
    for Some Tasks.                     determine whether FDIC received value for the money                            Demand Letter
                                        paid. Then, in conjunction with the Legal Division, we
                                        will disallow and pursue recovery of all amounts that
                                        cannot be adequately supported by the contractor, as
                                        appropriate.
                                                                                                       Sept 30, 2000   Decision
                                        CORRECTIVE ACTION FOR REC #6: DOA will                                         Memorandum or
                                        contact the IG auditors to obtain information on what was                      Demand Letter
                                        reviewed versus the costs that should be reviewed and will
                                        determine the materiality of the amount in question and the
                                        resources required to perform the review. DOA will
                                        disallow and pursue recovery of all amounts that cannot be
                                        adequately supported by the contractor, as appropriate.
5   The FDIC Paid     $84,700   Agree   CORRECTIVE ACTION FOR REC #7: We have                          closed
    for Costs that                      already recovered this money from the Landlord.
    Should Have                         Therefore, this recommendation is closed.
    Been Paid by
    the Landlord.
6    The FDIC Paid    $15,594   Agree   CORRECTIVE ACTION FOR REC #8: In                               Sept 30, 2000   Decision
       DuPont for                       conjunction with the Legal Division, DOA will determine                        Memorandum or
       Work Not                         our contractual standing on this issue and will disallow and                   Demand Letter
       Performed                        pursue recovery of all amounts as appropriate.




                                                          18
                                                                                                                                APPENDIX II
                                       MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation

   § the specific corrective actions already taken, if applicable;
   § corrective actions to be taken together with the expected completion dates for their implementation; and
   § documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons
for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions.
The information for management decisions is based on management’s written response to our report and subsequent discussions with management
representatives.




                                                                      19
                                                                                      Documentation                       Management
 Rec.                                                              Expected          That Will Confirm     Monetary       Decision: Yes
Number     Corrective Action: Taken or Planned/Status           Completion Date        Final Action        Benefits          or No
         Contracting officers will be notified by
                                                                                     Memorandum from
         memorandum to be cognizant of conditions that
                                                                                     Assistant Director,
         have the potential for limiting competition and to                                                   Not
  1                                                             September 30, 2000   Acquisition Section                      Yes
         take steps to ensure that adequate competition and                                                Quantifiable
                                                                                      to all contracting
         fair and consistent treatment is applied to all
                                                                                           officers
         offerors.
         DOA will determine whether FDIC received value
                                                                                        Decision           $38,925 in
         for the money paid. DOA will work with Legal to
  2                                                             September 30, 2000    Memorandum or        disallowed         Yes
         pursue recovery for all amounts the contractor
                                                                                      Demand Letter           costs
         cannot support.
         DOA will contact OIG for additional information so
                                                                                        Decision
         DOA can better estimate the value of the service not                                                 Not
  3                                                             September 30, 2000    Memorandum or                           Yes
         received. Further, DOA will work with Legal to                                                    Quantifiable
                                                                                      Demand Letter
         determine contractual standing in this matter.
         DOA will determine whether FDIC received value
                                                                                        Decision           $31,351 in
         for the money paid. DOA will work with Legal to
  4                                                             September 30, 2000    Memorandum or        disallowed         Yes
         pursue recovery for all amounts the contractor
                                                                                      Demand Letter           costs
         cannot support.
         DOA will determine whether FDIC received value
                                                                                        Decision           $11,661 in
         for the money paid. DOA will work with Legal to
  5                                                             September 30, 2000    Memorandum or        disallowed         Yes
         pursue recovery for all amounts the contractor
                                                                                      Demand Letter           costs
         cannot support.
         DOA will evaluate the materiality of the remaining
         additional work costs versus the resources required                            Decision
                                                                                                              Not
  6      to determine additional overcharges. DOA will          September 30, 2000    Memorandum or                           Yes
                                                                                                           Quantifiable
         pursue recovery of all amounts the contractor                                Demand Letter
         cannot support.
                                                                                                           $84,700 in
  7      DOA has recovered these funds.                             Completed          Demand Letter       disallowed         Yes
                                                                                                              costs
         DOA will work with Legal to determine contractual                              Decision           $15,594 in
  8      standing on this issue and will pursue recovery of     September 30, 2000    Memorandum or        disallowed         Yes
         all amounts as appropriate.                                                  Demand Letter           costs


                                                                        20
